Case: 19-30356

Document: 00515772580

Page: 1

Date Filed: 03/09/2021

Stmteb States Court, of-^ppeafe
for tlje Jftftlj Circuit

United States Court of Appeals
Fifth Circuit

FILED
March 9, 2021

No. 19-30356
Summary Calendar

Lyle W. Cayce
Clerk

United States of America,
Plaintiff—Appellee,
versus
Dwayne Winans, Jr.; Bryson Tuesno
Defendants—Appellants.

Appeal from the United States District Court
for the Eastern District of Louisiana
USDC No. 2:16-CR-175-1

Before Wiener, Southwick, and Duncan, Circuit Judges.
Per Curiam:*
Following a jury trial, Defendant-Appellant Dwayne Winans, Jr., was
convicted of two counts of bank robbery, in violation of 18 U.S.C. § 2113(a),
two counts of carjacking, in violation of 18 U.S.C. § 2119, and four counts of
brandishing a firearm during and in relation to a crime of violence, in

* Pursuant to 5th Circuit Rule 47.5, the court has determined that this
opinion should not be published and is not precedent except under the limited
circumstances set forth in 5th Circuit Rule 47.5.4.

Case: 19-30356

Document: 00515772580

Page: 2

Date Filed: 03/09/2021

No. 19-30356

violation of 18 U.S.C. § 924(c). He was sentenced to 360 months of
imprisonment, followed by a five-year term of supervised release.
Codefendant-Appellant Bryson Tuesno was convicted of two counts of
armed robbery and two counts of brandishing a firearm during and in relation
to a crime of violence and was sentenced to 180 months and one day of
imprisonment, followed by a three-year term of supervised release. They
both appeal.
As his sole issue on appeal, Winans contends that the district court
erred in denying his motion to dismiss his indictment, alleging a violation of
his rights under the Speedy Trial Act. Although Winans ’ s indictment issued
44 days after his arrest, 15 of those days were excludable, 10 for his transfer
from another district, see 18 U.S.C. § 3161(h)(1)(F), and five for the pendency
of the Government’s pretrial motion for detention, filed on Wednesday, August 24, 2016, and heard on Monday, August 29, 2016.
See
§ 3161(h)(1)(D); United States v. Gonzalez-Rodriguez, 621 F.3d 354, 368-69
(5th Cir. 2010).
Winans here renews his assertion that the delay in holding a hearing
on the Government’s pretrial motion for detention violated the Bail Reform
Act and, pursuant to that act, the Government was entitled to no more than
three excludable days, including weekends. His argument is not well-taken.
His reliance on United States v. Tinklenberg, 563 U.S. 647 (2011), is
misplaced: That case did not involve the specified delays under the Bail
Reform Act. That statute requires that weekends and legal holidays be
excluded from the relevant three-day period, see 18 U.S.C. § 3142(f)(2), so
the district court correctly determined that there was no violation of the Bail
Reform Act. Only 29 countable days of the speedy trial clock had lapsed at
the time his indictment issued, so Winans fails to show a violation of the
Speedy Trial Act. The district court did not err in denying his motion to
dismiss the indictment.

2

Case: 19-30356

Document: 00515772580

Page: 4

Date Filed: 03/09/2021

No. 19-30356

belied by the record, which, as the district court found, shows that the
Government called Gabriel with the expectation that she would testify
consistently with her prior statements.
The instant case is thus
distinguishable from Hogan. See 763 F.2d at 702. Moreover, despite
Gabriel’s memory problems, the Government was able to confirm through
her testimony that she had purchased the Chevrolet Monte Carlo in question
jointly with Tuesno and that the car was registered in both of their names.
There is thus no support in the record for the contention that the
Government’s “primary purpose” in calling Gabriel was to impeach her. See
Cisneros-Gutierrez, 517 F.3d at 760.
The claim also fails because the district court found Agent Plummer’s
testimony about Gabriel’s prior statements to be otherwise admissible under
FED. R. EVID. 803(2) and FED. R. EVID. 801(d). See Cisneros-Gutierrez,
517 F.3d at 760. Tuesno conclusionally states that this was error, but he briefs
no argument and cites no authority in support and has thus abandoned any
challenge to those rulings. See Yohey v. CollinSj 985 F.2d 222, 224-25 (5th
Cir. 1993); Brinkmann v. Dallas Cnty. Deputy SheriffAbner, 813 F.2d 744,748
(5th Cir. 1987); Beasley v. McCotter, 798 F.2d 116,118 (5th Cir. 1986).
For the foregoing reasons, the district court’s judgments are
AFFIRMED.

s

4

i

Case: 19-30356

\

Document: 00515907523

Page: 1

Date Filed: 06/21/2021

tBmteti States Court of gfopeate
for tljc jfiftlj Circuit

I

No. 19-30356
United States of America,
Plaintiff—Appellee,
versus
Dwayne Winans, Jr.; Bryson Tuesno
Defendants—Appellants.
Appeal from the United States District Court
for the Eastern District of Louisiana
USDC No. 2:16-CR-175-1

ON PETITION FOR REHEARING
Before Wiener, Southwick, and Duncan, Circuit Judges.
Per Curiam:
IT IS ORDERED that the appellant, Dwayne Winans, Jr. petition
for rehearing is DENIED.

